U.S. Department of                                  The Inspector General        Office of Inspector General
Transportation                                                                   Washington, DC 20590
Office of the Secretary
of Transportation

May 10, 2007

The Honorable James L. Oberstar
Chairman, Committee on Transportation
 and Infrastructure
U.S. House of Representatives
Washington, DC 20515

Dear Mr. Chairman:

This is in response to a request from your staff that we conduct a follow-up review to
our audit of staffing at the Federal Aviation Administration’s (FAA) combined radar
approach control and tower with radar facilities. We conducted that audit in response
to your August 30, 2006, letter requesting that we review FAA policies reportedly
prohibiting one controller from performing both radar and tower controller duties at
these facilities. You also requested that we determine the extent to which towers
covered by the policy were complying with it. We issued the results of that audit on
March 16, 2007. 1

Based on our findings, your staff requested that we perform additional follow-up
work to determine if these FAA facilities are complying with FAA’s new, written
policy for staffing on midnight shifts. 2 The enclosure to this letter details the results
of our follow-up review.

Overall, we found that facilities are complying with FAA’s new policy. Our sample
of 45 days of staffing data at each of the 15 statistically selected locations found that
at least 2 controllers were scheduled on all midnight shifts at those locations and that
controllers were not combining positions for extended periods of time. In addition,
we found that FAA is taking actions to address the recommendation from our March
2007 report to develop and implement appropriate procedures to ensure that facilities
are complying with the new policy.



1
    OIG Report Number AV-2007-038, “Review of Staffing at FAA’s Radar Approach Control and Tower With Radar
    Facilities,” March 16, 2007. OIG reports can be found on our website: www.oig.dot.gov.
2
    The new, written policy; FAA Notice N JO 7210.639, “Consolidating Control Functions”; was issued on
    November 17, 2007.


Con tro l No . 2006-084
                                                                                      2


For example, FAA is adding midnight shift staffing as a specific review item to its
facility evaluation process, which is conducted by an FAA Headquarters quality
assurance group at all FAA air traffic facilities every 3 years.

Based on our results and FAA’s ongoing actions, we are not making any further
recommendations regarding staffing at combined approach control and tower with
radar facilities at this time.

We have provided a similar response to Jerry F. Costello, Chairman of the
Subcommittee on Aviation.

If I can answer any questions or be of further assistance in this matter, please contact
me at (202) 366-1959 or my Deputy, Todd J. Zinser, at (202) 366-6767.


Sincerely,




Calvin L. Scovel III
Inspector General


Enclosure


cc: FAA Administrator
    FAA Deputy Administrator
    Vice President of Terminal Services, Air Traffic Organization




Con tro l No . 2006-084
                                                                       Enclosure
                                                                     Page 1 of 4


BACKGROUND
On the morning of August 27, 2006, Comair flight 5191 was scheduled to fly from
Lexington, Kentucky, to Atlanta, Georgia. Based on preliminary reports, the
pilots mistakenly taxied onto the wrong runway at Lexington and executed their
take-off roll. The runway, however, was too short to complete a take-off, and a
tragic accident occurred that resulted in the loss of 49 passengers and crew.

Shortly after the accident, media reports surfaced indicating that only one air
traffic controller was working in the Lexington tower at the time of the accident.
According to those reports, the controller was working both tower and radar
functions combined and reportedly had his back turned to the airfield during
Comair 5191’s take-off roll. The media also reported that this was contrary to
FAA policy, which reportedly required that two controllers be present in towers
that provide both tower control and radar services.

As a result of those reports, on August 30, 2006, Representative James Oberstar,
then Ranking Democratic Member of the House Committee on Transportation and
Infrastructure, and Representative Jerry Costello, then Ranking Democratic
Member of the House Subcommittee on Aviation, requested that the Office of
Inspector General review the FAA policy that reportedly prohibited one controller
from performing both radar and tower controller duties and determine the extent to
which the towers covered by the policy were complying with it.

We briefed the Congressmen’s staff on December 20, 2006, concerning the results
of our review. Based on discussions at that briefing, we agreed to perform
additional follow-up work.


OBJECTIVE
The objective of this review was to determine the extent to which FAA combined
radar approach control and tower with radar facilities are complying with
provisions of FAA Notice N JO 7210.639, “Consolidating Control Functions.”




Con tro l No . 2006-084
                                                                                                         Enclosure
                                                                                                       Page 2 of 4


CRITERIA
FAA Notice N JO 7210.639—which was effective November 17, 2006—states the
following:

           At facilities where both tower and radar/nonradar approach control services
           are provided, the air traffic manager must ensure, to the maximum extent
           possible, that these functions are not consolidated unless unforeseen
           circumstances or emergency situations arise. . . .

           During midwatch operations (between 2230 and 0630 local time), when
           traffic is very light, all functions may be consolidated for short meal or
           physiological breaks. 1 At facilities with a tower only operation and staffing
           of only one certified professional controller (CPC), coordination must be
           accomplished with the facility providing radar/non-radar approach control
           services to the airport before the CPC can leave the operational quarters for
           physiological breaks. This should only be done during periods of light to
           zero traffic.


METHODOLOGY
As of January 2006, there were 138 combined radar approach control and tower
with radar facilities in the National Airspace System. Seventy-three of these
facilities operated 24 hours per day. We limited our review to 62 of the
73 facilities that were designated as Air Traffic Control Level 5 through 9. 2 These
62 facilities are closest in complexity to the Lexington, Kentucky, facility (a Level
7 facility).

To determine if the facilities were complying with FAA’s new policy, we
statistically selected and reviewed 15 of the 62 facilities in our universe (see table
below). We performed site visits at 4 of the 15 facilities. During these visits, we
requested and reviewed staffing data for all midnight shifts for the period of
November 17, 2006, through December 31, 2006 (45 days). We also reviewed the
same 45 days of staffing data for all midnight shifts for the 11 facilities that we did
not visit; FAA Headquarters provided us with those data.




1
    Although FAA’s written policy does not define a “short” meal or physiological break, we considered position
    combinations of greater than 60 minutes to be an exception to the policy for the purposes of our review.
2
    FAA air traffic facilities are categorized into multiple levels (5 through 12); the higher the level, the greater the
    demand on a controller’s judgment, skill, and decision-making ability.


Con tro l No . 2006-084
                                                                                                 Enclosure
                                                                                               Page 3 of 4
                      Table. Sample of 15 Facilities Reviewed
 Facility ID                 Facility Name                          City               State         ATC Level
 TOL         Toledo Express Airport                            Toledo               Ohio                7
 SHV         Shreveport Regional Airport                       Shreveport           Louisiana           7
 FAY*        Fayetteville Regional Airport                     Fayetteville         North Carolina      7
 DSM         Des Moines International Airport                  Des Moines           Iowa                7
 FAT         Fresno-Yosemite Airport                           Fresno               California          8
 TYS*        McGhee Tyson Airport                              Knoxville            Tennessee           8
 BOI         Boise Air Terminal                                Boise                Idaho               8
 ACY*        Atlantic City International Airport               Atlantic City        New Jersey          8
 RDU         Raleigh-Durham International Airport              Raleigh/Durham North Carolina            9
 AUS         Austin-Bergstrom International Airport            Austin               Texas               9
 SDF         Louisville International Airport                  Louisville           Kentucky            9
 IND         Indianapolis International Airport                Indianapolis         Indiana             9
 MCI         Kansas City International Airport                 Kansas City          Missouri            9
 LIT*        Little Rock International Airport                 Little Rock          Arkansas            9
 TUL         Tulsa International Airport                       Tulsa                Oklahoma            9
* OIG staff visited the Fayetteville, Knoxville, Atlantic City, and Little Rock facilities.
  Source: Office of Inspector General

  We also obtained and reviewed position logs from all 15 facilities for all midnight
  shifts for the same period. The position logs indicate which tower and radar
  positions are open during a shift and who is actually working those positions. At
  the four facilities we visited, we also interviewed facility managers to determine
  staffing levels and traffic counts on the midnight shifts and obtain their views on
  implementation of the new policy. We also interviewed union representatives at
  each of the four facilities to obtain their view on how the new policy had affected
  staffing at the facility.

  RESULTS
  We found that FAA’s combined radar approach control and tower with radar
  facilities are complying with provisions of FAA Notice N JO 7210.639,
  “Consolidating Control Functions.” Although, we did find exceptions to the
  policy at three facilities, the exceptions were minor. For example, in one instance,
  all positions were combined, and one controller was working alone for 62 minutes
  rather than the 60-minute time limit we used for our review. We consider those
  incidents immaterial to our overall findings and concluded that the facilities are
  complying with FAA’s new policy.

  Based on the results at the 15 facilities in our sample, we can statistically project
  (with a 95-percent confidence level) that the percentage of non-compliance is
  between 0 and 20 percent, with a best estimate that all 62 combined radar
  approach control and tower with radar facilities in our universe were complying
  with the policy.


  Con tro l No . 2006-084
                                                                     Enclosure
                                                                   Page 4 of 4
In addition, we found that FAA is taking actions to address the recommendation
from our March 2007 report to develop and implement appropriate procedures to
ensure that facilities are complying with the new, written policy. For example,
FAA is adding midnight shift staffing as a specific review item to its facility
evaluation process, which is conducted by a quality assurance group from FAA
Headquarters at all FAA air traffic facilities every 3 years.


CONCLUSION
Based on the results of our review and FAA’s ongoing actions to address the
recommendations from our March 16, 2007, report, we are not making any further
recommendations regarding staffing at combined approach control and tower with
radar facilities at this time.




Con tro l No . 2006-084
